    U.S. DEPARTMENT OF COMMERCE
              Office of Inspector General




            OFFICE OF THE CHIEF
          INFORMATION OFFICER

      The Department’s Privacy Impact
       Assessment Process Is Generally
          Implemented Well, But Some
            Improvements Are Needed


Final Inspection Report No. OSE-19047/September 2008




                         Office of Systems Evaluation
                                                          UNITED STATES DEPARTMENT OF COMMERCE
                                                          Office of Inspector General
                                                         Washington, D.C. 20230




                                SEP 24 2008


MEMORANDUM FOR:               Suzanne Hilding
                              Chief InfQrmation Officer
                             ~.~
FROM:                        4'udith J. Gor£n
                              Assistant Inspector General for Audit and Evaluation

SUBJECT:                      The Department's Privacy Impact Assessment Process Is
                              Generally Implemented Well, But Some Improvements Are Needed
                              Final Report No. OSE-19047


This is our final report on the results of our Federal Information Security Management
Act (FISMA) evaluation of the Department's privacy impact assessment process and Web
privacy policy and processes. We recommended several policy and process improvements, but
overall we found that the Department's IT privacy policy and privacy impact assessments
comply with the E-Government Act and OMB guidance, and a process is in place to ensure Web
policy compliance.

In response to our draft report, you concurred with our findings and indicated that the Office of
the Chief Information Officer will implement all the recommendations outlined in the report.
We request that you provide us an action plan describing the actions you have taken or plan to
take in response to our recommendations within 60 calendar days of the date of this report. The
plan should be in the form of plans of action and milestones (POA&Ms) as required by FISMA.

We appreciate the cooperation and courtesies extended to us by your staff and Commerce
operating unit personnel during our evaluation. If you would like to discuss any of the issues
raised in this report, please call me at (202) 482-2754 or Allen Crawley, Deputy Assistant
Inspector General for Systems Evaluation, at (202) 482-1855.

cc:	 Lisa Westerback, Director, Office of IT Policy and Planning
     Earl Neal, Director, Office ofIT Security, Infrastructure and Technology
     Trudy Gallic, Audit Liaison
U.S. Department of Commerce                                                                                      Final Report OSE-19047
Office of Inspector General                                                                                              September 2008


                                                              CONTENTS


Introduction......................................................................................................................... 1
Findings and Recommendations ......................................................................................... 3
   I.      The Department’s IT Privacy Policy Is Out-of-Date and Needs Revision..............3
   II.     Some PIAs Do Not Adequately Address All the Required Elements .....................5
   III. The Department Has Implemented a Process for Determining Web Policy
           Compliance but Needs to Strengthen Validation.....................................................7
Appendix A: Objectives, Scope, and Methodology............................................................ 9
Appendix B: Reviewed Privacy Impact Assessments ...................................................... 10
Appendix C: Chief Information Officer Response ........................................................... 11
U.S. Department of Commerce                                                               Final Report OSE-19047
Office of Inspector General                                                                       September 2008


                                             INTRODUCTION

Federal agencies obtain and maintain significant amounts of personally identifiable information
(PII) about individuals that must be safeguarded from loss or misuse. The E-Government Act of
2002 requires agencies to conduct privacy impact assessments (PIAs) of information systems and
collections containing PII and, if practicable, to make them publicly available to assure the
public that personal information is well protected. The act also requires agencies to post privacy
policies on their public Web sites in a machine-readable format.

The Department’s Information Technology (IT) Privacy Policy, last revised January 29, 2007,
sets out Commerce’s policies for implementing the privacy provisions in the E-Government Act
and the requirements of the Office of Management and Budget’s (OMB’s) M-03-22, Guidance
for Implementing the Privacy Provisions of the E-Government Act of 2002. The Department’s IT
privacy policy defines the responsibilities Commerce operating units have for conducting PIAs
and posting PIAs and privacy policies on Commerce Web sites. In accordance with OMB M-03-
22, the Department’s IT privacy policy requires that all PIAs document the following elements:

     o What information is being collected, maintained, or disseminated.
     o Why the information is being collected, maintained, or disseminated.
     o Intended use of the information.
     o With whom the information will be shared.
     o What opportunities individuals or businesses have to decline providing information in
       the case of voluntary collections; and opportunities to consent to particular uses of the
       information and how they can grant consent.
     o How the information is secured.
     o Whether the collection will result in the creation of a system of records 1 within the
       meaning of the Privacy Act.

In addition, the Department’s Chief Information Officer (CIO) requires the following elements
to be documented:

    o Identifying information: OMB Exhibit 300 Identification Number; name of system or
      OMB information collection control number; related Privacy Act System of Records
      notice; and name, e-mail address, and phone number of a contact person.
    o A brief description of the system.
    o Event or reason the PIA was conducted.
    o The law or regulation that authorizes collection and maintenance of the information.

The policy names the Department’s CIO as the official responsible for ensuring that personally
identifiable information in Commerce systems is effectively protected. These responsibilities
include developing and disseminating policy and guidance on preparation of and posting Web
privacy policies and PIAs and reviewing and approving PIAs. The CIO is also responsible for the

1
  The Privacy Act of 1974 (5 U.S.C. § 552a) defines a system of records as a group of records under the control of
the agency from which information is retrieved by the name of the individual or by some identifying number,
symbol, or other identifying particular assigned to the individual.


                                                         1
U.S. Department of Commerce                                                Final Report OSE-19047
Office of Inspector General                                                        September 2008

submission of mandatory PIAs to OMB as well as required E-Government Act compliance
reports.

OMB requires offices of inspector general to qualitatively assess the agencies’ PIA processes as
part of the Federal Information Security Management Act (FISMA) reporting requirements. To
meet our FY 2008 FISMA requirements, we evaluated the Department’s PIA and Web privacy
processes. We sought to determine whether the Department’s PIA process included all the key
aspects of conducting and publicly posting PIAs as called for in the E-Government Act and in
OMB guidance. We also sought to determine whether policies and processes for determining
continued compliance with stated Web privacy policies are adequate and ensure machine-
readability on public Web sites. (See appendix A.)


Chief Information Officer Response

In responding to our draft report, the Department’s Chief Information Officer concurred with all
of our recommendations. The CIO’s written response is included as appendix C.




                                                2
U.S. Department of Commerce                                                                  Final Report OSE-19047
Office of Inspector General                                                                          September 2008


                             FINDINGS AND RECOMMENDATIONS

I.    The Department’s IT Privacy Policy Is Out-of-Date and Needs Revision

The Department’s IT privacy policy provides guidance for determining when a PIA must be
conducted for an information system or collection and what information must be documented.
The policy is consistent with the E-Government Act and OMB M-03-22 guidance but is
outdated. The policy does not include new PIA requirements recently imposed by the
Department’s CIO.

In a December 18, 2007, memorandum to all chief information officers, Data Extract Log and
Verify Requirement, the Department’s CIO required operating units to take the following actions
by March 28, 2008:

     1. Review and update all existing PIAs, specifically describing how the log and verify
        requirement of OMB M-07-16, Safeguarding Against and Responding to the Breach of
        Personally Identifiable Information, has been implemented for the system. 2

     2. Develop PIAs for all investigative, law enforcement case files, and human resource
        databases even if they were previously exempt because they have not been modified or
        contain information only about federal employees.

Although the stated purpose of the memorandum was to document the implementation of OMB’s
data extract log and verify requirement, it effectively changes the IT privacy policy PIA
exemption for legacy and currently operational systems, as well as systems that contain
information only about federal employees and requires that all Commerce systems containing
PII be assessed for privacy impact. We confirmed that the Department intends all Commerce
systems with any personally identifiable information to have a PIA.

We also found the Department’s Office of the CIO (OCIO) has requested that PIAs document
whether the records collected are being retained, and if so, to include the specified retention
schedule. However, these requirements are not part of the Department’s IT privacy policy.

As the authoritative source for guidance on the PIA process, the Department’s IT privacy policy
should be updated and revised to incorporate all new requirements. We note the Data Extract
Log and Verify Requirement memorandum has been posted to the Department’s IT security and
privacy Web page but there is no indication that it contains new requirements or changes to the
PIA process.

Finally, in describing the requirements for privacy impact assessments, the Department’s IT
security policy references the E-Government Act but does not refer to the IT privacy policy. This
reference should be included in the current IT security policy update.


2
  OMB M-07-16 requires that agencies log all computer-readable data extracts from databases holding sensitive
information and verify each extract, including whether sensitive data has been erased within 90 days or its use is still
required.


                                                           3
U.S. Department of Commerce                                               Final Report OSE-19047
Office of Inspector General                                                       September 2008


Recommendations

The Department’s Chief Information Officer should direct appropriate managers to

1.1    update the IT privacy policy to incorporate all new PIA requirements; and

1.2    update the Department’s IT Security Policy and Minimum Implementation Standards to
       refer to the IT privacy policy for guidance in developing PIAs.




                                               4
U.S. Department of Commerce                                                  Final Report OSE-19047
Office of Inspector General                                                          September 2008


II.   Some PIAs Do Not Adequately Address All the Required Elements

The Department’s IT privacy policy requires operating units to submit PIAs for review and
approval. The Department’s CIO is responsible for the review and approval of PIAs to ensure
compliance with the privacy provisions of the E-Government Act, OMB M-03-22, and
Department policy.

We reviewed 20 PIAs and found they generally met the intent of OMB’s guidance. We believe
this is attributable in part to the helpfulness of OCIO staff in providing guidance and consultation
to the operating units during the PIA development and review process. However, 4 PIAs did not
provide sufficient information for certain specific elements required by OMB M-03-22—what
information is being collected, maintained, or disseminated; with whom the information will be
shared; and how the information will be secured.

We also determined that 14 of the PIAs did not include sufficient information for 1 or more of
the additional elements required by Department policy (but not by OMB)—identifying
information (point of contact information or the OMB Exhibit 300 identification number); event
or reason the PIA was conducted; and the law or regulation authorizing the collection and
maintenance of the information.

Table 1 identifies the PIAs that did not adequately address the elements discussed in the
preceding paragraphs and identifies those elements.

Six PIAs we reviewed did not include the OMB Exhibit 300 identification number. (See table 1.)
The Department’s CIO uses the Exhibit 300 process to ensure that systems containing personally
identifiable information are identified and assessed. The Department’s IT privacy policy
elaborates on the specific relationship between the assessment and Exhibit 300. It states PIAs
“must clearly indicate the link between the privacy system or information collection covered by
the PIA and the related major information system described in the OMB Exhibit 300.” OCIO
staff told us, however, that Exhibit 300 numbers might not be applicable for certain PIAs. OCIO
should revise the Exhibit 300 section of the policy to stipulate when an Exhibit 300 number is
not needed.

Recommendations

The Department’s Chief Information Officer should direct appropriate managers to

2.1    revise the Exhibit 300 section of the IT privacy policy to make it clear when Exhibit 300
       identification numbers are needed in PIAs;

2.2    ensure that PIAs are not approved unless they contain all elements required by the
       Department’s IT privacy policy; and

2.3    consider developing additional guidance on the level of detail to be provided for each
       PIA element required by the Department’s IT privacy policy.



                                                 5
U.S. Department of Commerce                                                 Final Report OSE-19047
Office of Inspector General                                                         September 2008

Table 1. PIAs That Did Not Adequately Address the Required Elements

                                                  PIA Elements
                       OMB M-03-22 elements                 Additional Department elements
     PIAs                                             OMB
                Information Information   Security Exhibit 300    Point of
                 Collected    Shared      controls      No.       Contact          Event     Law
Economic Development Administration (EDA)
WebCIMS                                                  X                           X
National Telecommunications and Information Administration (NTIA)

Digital Coupon
Program                                       X            X
Office of the Secretary (OS)
ZyIndex                                                                 X            X       X
CSTARS                          X                                                    X
MAPS                                                                    X            X
ACES                                                   X                             X
HSPD-12                                                X                X
National Oceanic and Atmospheric Administration (NOAA)
Crab EDR            X
Permits
Alaska              X                                                                X

Grants Online                                                                        X
National
Vessel
Monitoring
System                                                                               X
Marine and
Aviation
Health
Services                                                                                     X
Web
Application
Subsystem                                                                            X
U.S. Census Bureau
Population
Estimates                                                 X
National
Longitudinal
Mortality Study                                            X



The following Census PIAs addressed all elements: Center for Economic Studies, Field Support
System, Geographic Support Systems, Longitudinal Employer Household Dynamic (LEHD)
Program, and Survey of Business Owners.



                                              6
U.S. Department of Commerce                                                          Final Report OSE-19047
Office of Inspector General                                                                  September 2008


III. The Department Has Implemented a Process for Determining Web Policy
     Compliance but Needs to Strengthen Validation

The E-Government Act requires federal agencies to post machine-readable Web privacy policies
on their sites. The Department’s Web policy, Privacy of Visitors to DOC Web Sites, requires all
Commerce public Web sites to have privacy policy statements that describe in plain language
what information is collected; how long it is retained; how it is used; what information is shared,
with whom it is shared, and how the user can give consent; the prohibition on the use of
persistent technology except under certain circumstances; and how Web sites that have
interactions with children handle getting parental consent.

Machine readability of posted Web privacy policies ensures users can be alerted automatically
when posted Web site privacy practices do not match personal privacy preference settings in
Web browsers. Machine readability is provided by the Platform for Privacy Preferences Project
(P3P) protocol.

OCIO, through its Web Advisory Group, has developed two presentations for training system
administrators and users on implementing P3P. The training for system administrators covers
development of machine-readable policies on Web sites. The user training covers setting browser
preferences.

In January 2001, the Department’s CIO established an annual Web site certification policy,
which requires operating unit CIOs to certify their Web sites comply with the Department's Web
policy, including machine readability of privacy policies on public Web sites. For those Web
sites that are determined to be noncompliant, the operating unit CIOs must submit a
noncompliance report that includes an explanation for the noncompliance and a target date for
compliance.

To validate the annual operating units’ certification, Department CIO staff evaluates
Commerce’s 21 major Web sites 3 for compliance. However, this approach does not consider the
variations in the number of Web sites within operating units. For example, 5 operating units have
1 or 2 Web sites, whereas 3 operating units have more than a hundred. To be effective, the
validation should evaluate for each operating unit a number of Web sites proportional to its total
number of Web sites. For FY 2007, the Department identified a total of 842 Web sites.

We also found that the evaluation process did not validate P3P implementation. After we brought
this problem to the attention of OCIO staff, the validation process was modified to use both the
Internet Explorer browser and the World Wide Web Consortium P3P Validator tool to validate
P3P implementation. OCIO staff provided us an overview and demonstration of the P3P
validation process on several operating unit Web sites we selected.




3
 Commerce defines the major Web sites as the home pages for Commerce, operating units including six NOAA line
offices, the U.S. Patent and Trademark Office, the Office of Inspector General, and Office of General Counsel.


                                                      7
U.S. Department of Commerce                                               Final Report OSE-19047
Office of Inspector General                                                       September 2008


Recommendation

3.1    The Department’s Chief Information Officer should ensure that a more representative
       number of Web sites across the operating units are examined to validate reported annual
       compliance with the Department’s Web policy.




                                               8
U.S. Department of Commerce                                                Final Report OSE-19047
Office of Inspector General                                                        September 2008


          APPENDIX A: OBJECTIVES, SCOPE, AND METHODOLOGY

As part of our FY 2008 FISMA requirements, we evaluated whether the Department’s PIA
process adheres to existing policy, guidance, and standards. In addition, we evaluated policies
and processes for determining continued compliance with stated Web privacy policies and
ensuring machine readability on public Web sites (i.e., use of Platform for Privacy Preferences
Project [P3P]). The results of this evaluation will be included in our annual FISMA report to
OMB.

To meet our objectives, we randomly selected for review 20 of the 36 PIAs that had been
approved by the Department. (See appendix B.) We also interviewed the manager and staff from
the Office of IT Policy and Planning, which handles the PIA process and Web privacy for the
Department’s CIO office, as well as staff from Census, NOAA, and NIST involved in the PIA
development and Web privacy compliance processes. Our evaluation criteria included the E-
Government Act of 2002; OMB M-07-19, Reporting Instructions for FISMA; OMB
Memorandum M-03-22, OMB Guidance for Implementing the Privacy Provisions of the E-
Government Act of 2002; U.S. Department of Commerce Information Technology Privacy
Policy; and U.S. Department of Commerce Privacy of Visitors to DOC Web Sites.

We conducted this evaluation in accordance with the Inspector General Act of 1978, as amended,
and the Quality Standards for Inspections, January 2005, issued by the President’s Council on
Integrity and Efficiency. We performed our fieldwork from February through April 2008.




                                                9
U.S. Department of Commerce                                             Final Report OSE-19047
Office of Inspector General                                                     September 2008


         APPENDIX B: REVIEWED PRIVACY IMPACT ASSESSMENTS

EDA
  1. WebCIMS Correspondence Tracking System

NTIA
  1. Coupon Program for Digital to Analog Converter Boxes

Office of the Secretary
   1. ZyIndex Personnel Security System
   2. Commerce Standard Acquisition Reporting System (CSTARS)/CBUY
   3. Office of Security Management Application for Security (MAPS)
   4. Automated Commerce Employment System
   5. Homeland Security Presidential Directive 12 (HSPD12) Personal Identity Verification
       PART-1 (PIV-1)

NOAA
  1. Crab Economic Data Report for Bering Sea/Aleutian Islands Management Areas off the
     Coast of Alaska (NMFS)
  2. Permits and Registrations for Fisheries of the Exclusive Economic Zone off the Coast of
     Alaska (NMFS)
  3. NOAA Vessel Monitoring System
  4. NOAA Grants Online System
  5. Marine and Aviation Operations Health Services Database
  6. NOS Web Application Subsystem

Census
   1. Center for Economic Studies
   2. Field Support Systems
   3. Geographic Support Systems
   4. Longitudinal Employer Household Dynamic (LEHD) Program
   5. Population Estimates
   6. National Longitudinal Mortality Study (NLMS)
   7. Survey of Business Owners




                                             10
U.S. Department of Commerce                      Final Report OSE-19047
Office of Inspector General                              September 2008


          APPENDIX C: CHIEF INFORMATION OFFICER RESPONSE




                                11
